APPENDIX A
United States v. Acosta-Leyva,
No. 19-50554, unpub. op. (5th Cir. April 28, 2020)

Case: 19-50554

Document: 00515397978

Page: 1

Date Filed: 04/28/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-50554
Summary Calendar

April 28, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
UBALDO GABRIEL ACOSTA-LEYVA,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
USDC No. 3:18-CR-3542-1
Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Ubaldo Gabriel Acosta-Leyva appeals the within-guidelines concurrent
33-month sentences imposed for his conviction for conspiracy to import
marijuana, importation of marijuana, conspiracy to possess marijuana with
intent to distribute, and possession of marijuana with intent to distribute. He
contends that his concurrent sentences are substantively unreasonable
because they punish him for a speculative quantity of marijuana and fail under

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-50554

Document: 00515397978

Page: 2

Date Filed: 04/28/2020

No. 19-50554
18 U.S.C. § 3553(a) to adequately account for his background and lack of
criminal history, his lack of knowledge of the amount of drugs involved, and
the fact that he committed the nonviolent offenses out of fear for the safety of
his family.
We review the substantive reasonableness of Acosta-Leyva’s sentences
for abuse of discretion. See Holguin-Hernandez v. United States, 140 S. Ct. 762,
766–67 (2020). Acosta-Leyva’s concurrent sentences are presumptively
reasonable because they fell within his advisory guidelines range. See United
States v. Hernandez, 876 F.3d 161, 166 (5th Cir. 2017). The district court heard
Acosta-Leyva’s arguments for below-guidelines sentences, but the district
court determined that concurrent sentences at the bottom of the guidelines
range were appropriate. We are also not persuaded by Acosta-Leyva’s
argument that the district court should have applied a downward variance
because the sentencing guidelines’ treatment of drug quantities is not based
on empirical data. Acosta-Leyva does not challenge the district court’s
calculation of the drug quantity attributable to him, and we have rejected the
argument that a district court must disregard a particular guideline because
it is not empirically based. See United States v. Mondragon-Santiago, 564 F.3d
357, 366–67 (5th Cir. 2009); see also United States v. Sphabmisai, 703 F. App’x
275, 276 (5th Cir. 2017) (holding that a district court is “not required to
question the empirical grounding” behind the guidelines).
Furthermore, our review of substantive reasonableness “is highly
deferential, because the sentencing court is in a better position to find facts
and judge their import under the § 3553(a) factors with respect to a particular
defendant.” Hernandez, 876 F.3d at 166 (internal quotation marks and citation
omitted). The district court was not persuaded that the § 3553(a) factors
weighed in favor of sentencing below the guidelines range, and we will not

2

Case: 19-50554

Document: 00515397978

Page: 3

Date Filed: 04/28/2020

No. 19-50554
reweigh the factors ourselves. See United States v. Campos-Maldonado, 531
F.3d 337, 339 (5th Cir. 2008). Giving due deference to the district court’s
sentencing decision, we conclude after reviewing the record that Acosta-Leyva
has not shown an abuse of discretion with respect to the substantive
reasonableness of his sentence. See Hernandez, 876 F.3d at 166–67.
AFFIRMED.

3

APPENDIX B
U.S.S.G. §2D1.1

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

KeyCite Red Flag - Severe Negative Treatment
Unconstitutional or PreemptedUnconstitutional as Applied by U.S. v. Ameline, 9th Cir.(Mont.), Feb. 09, 2005

United States Code Annotated
Federal Sentencing Guidelines (Refs & Annos)
Chapter Two. Offense Conduct (Refs & Annos)
Part D. Offenses Involving Drugs and Narco-Terrorism (Refs & Annos)
1. Unlawful Manufacturing, Importing, Exporting, Trafficking, or Possession; Continuing Criminal
Enterprise
USSG, § 2D1.1, 18 U.S.C.A.
§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking (Including
Possession with Intent to Commit These Offenses); Attempt or Conspiracy
Currentness
(a) Base Offense Level (Apply the greatest):
(1) 43, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(A), (b)(1)(B), or (b)(1)(C), or 21 U.S.C. § 960(b)(1), (b)(2),
or (b)(3), and the offense of conviction establishes that death or serious bodily injury resulted from the use of the substance
and that the defendant committed the offense after one or more prior convictions for a similar offense; or
(2) 38, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(A), (b)(1)(B), or (b)(1)(C), or 21 U.S.C. § 960(b)(1), (b)(2),
or (b)(3), and the offense of conviction establishes that death or serious bodily injury resulted from the use of the substance; or
(3) 30, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(E) or 21 U.S.C. § 960(b)(5), and the offense of conviction
establishes that death or serious bodily injury resulted from the use of the substance and that the defendant committed the
offense after one or more prior convictions for a similar offense; or
(4) 26, if the defendant is convicted under 21 U.S.C. § 841(b)(1)(E) or 21 U.S.C. § 960(b)(5), and the offense of conviction
establishes that death or serious bodily injury resulted from the use of the substance; or
(5) The offense level specified in the Drug Quantity Table set forth in subsection (c), except that if (A) the defendant receives
an adjustment under § 3B1.2 (Mitigating Role); and (B) the base offense level under subsection (c) is (i) level 32, decrease
by 2 levels; (ii) level 34 or level 36, decrease by 3 levels; or (iii) level 38, decrease by 4 levels. If the resulting offense level
is greater than level 32 and the defendant receives the 4-level (“minimal participant”) reduction in § 3B1.2(a), decrease to
level 32.
(b) Specific Offense Characteristics
(1) If a dangerous weapon (including a firearm) was possessed, increase by 2 levels.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(2) If the defendant used violence, made a credible threat to use violence, or directed the use of violence, increase by 2 levels.
(3) If the defendant unlawfully imported or exported a controlled substance under circumstances in which (A) an aircraft other
than a regularly scheduled commercial air carrier was used to import or export the controlled substance, (B) a submersible
vessel or semi-submersible vessel as described in 18 U.S.C. § 2285 was used, or (C) the defendant acted as a pilot, copilot,
captain, navigator, flight officer, or any other operation officer aboard any craft or vessel carrying a controlled substance,
increase by 2 levels. If the resulting offense level is less than level 26, increase to level 26.
(4) If the object of the offense was the distribution of a controlled substance in a prison, correctional facility, or detention
facility, increase by 2 levels.
(5) If (A) the offense involved the importation of amphetamine or methamphetamine or the manufacture of amphetamine
or methamphetamine from listed chemicals that the defendant knew were imported unlawfully, and (B) the defendant is not
subject to an adjustment under § 3B1.2 (Mitigating Role), increase by 2 levels.
(6) If the defendant is convicted under 21 U.S.C. § 865, increase by 2 levels.
(7) If the defendant, or a person for whose conduct the defendant is accountable under § 1B1.3 (Relevant Conduct), distributed
a controlled substance through mass-marketing by means of an interactive computer service, increase by 2 levels.
(8) If the offense involved the distribution of an anabolic steroid and a masking agent, increase by 2 levels.
(9) If the defendant distributed an anabolic steroid to an athlete, increase by 2 levels.
(10) If the defendant was convicted under 21 U.S.C. § 841(g)(1)(A), increase by 2 levels.
(11) If the defendant bribed, or attempted to bribe, a law enforcement officer to facilitate the commission of the offense,
increase by 2 levels.
(12) If the defendant maintained a premises for the purpose of manufacturing or distributing a controlled substance, increase
by 2 levels.
(13) If the defendant knowingly misrepresented or knowingly marketed as another substance a mixture or substance
containing fentanyl (N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide) or a fentanyl analogue, increase by 4 levels.
(14) (Apply the greatest):
(A) If the offense involved (i) an unlawful discharge, emission, or release into the environment of a hazardous or toxic
substance; or (ii) the unlawful transportation, treatment, storage, or disposal of a hazardous waste, increase by 2 levels.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(B) If the defendant was convicted under 21 U.S.C. § 860a of distributing, or possessing with intent to distribute,
methamphetamine on premises where a minor is present or resides, increase by 2 levels. If the resulting offense level is
less than level 14, increase to level 14.
(C) If-(i) the defendant was convicted under 21 U.S.C. § 860a of manufacturing, or possessing with intent to manufacture,
methamphetamine on premises where a minor is present or resides; or
(ii) the offense involved the manufacture of amphetamine or methamphetamine and the offense created a substantial
risk of harm to (I) human life other than a life described in subdivision (D); or (II) the environment, increase by 3 levels.
If the resulting offense level is less than level 27, increase to level 27.
(D) If the offense (i) involved the manufacture of amphetamine or methamphetamine; and (ii) created a substantial risk
of harm to the life of a minor or an incompetent, increase by 6 levels. If the resulting offense level is less than level 30,
increase to level 30.
(15) If (A) the offense involved the cultivation of marihuana on state or federal land or while trespassing on tribal or private
land; and (B) the defendant receives an adjustment under § 3B1.1 (Aggravating Role), increase by 2 levels.
(16) If the defendant receives an adjustment under § 3B1.1 (Aggravating Role) and the offense involved 1 or more of the
following factors:
(A)(i) The defendant used fear, impulse, friendship, affection, or some combination thereof to involve another individual in
the illegal purchase, sale, transport, or storage of controlled substances, (ii) the individual received little or no compensation
from the illegal purchase, sale, transport, or storage of controlled substances, and (iii) the individual had minimal knowledge
of the scope and structure of the enterprise;
(B) The defendant, knowing that an individual was (i) less than 18 years of age, (ii) 65 or more years of age, (iii) pregnant, or
(iv) unusually vulnerable due to physical or mental condition or otherwise particularly susceptible to the criminal conduct,
distributed a controlled substance to that individual or involved that individual in the offense;
(C) The defendant was directly involved in the importation of a controlled substance;
(D) The defendant engaged in witness intimidation, tampered with or destroyed evidence, or otherwise obstructed justice
in connection with the investigation or prosecution of the offense;
(E) The defendant committed the offense as part of a pattern of criminal conduct engaged in as a livelihood,
increase by 2 levels.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 2D1.1. Unlawful Manufacturing, Importing, Exporting, or Trafficking..., FSG § 2D1.1

(17) If the defendant receives the 4-level (“minimal participant”) reduction in § 3B1.2(a) and the offense involved all of the
following factors:
(A) The defendant was motivated by an intimate or familial relationship or by threats or fear to commit the offense and
was otherwise unlikely to commit such an offense;
(B) The defendant received no monetary compensation from the illegal purchase, sale, transport, or storage of controlled
substances; and
(C) The defendant had minimal knowledge of the scope and structure of the enterprise,
decrease by 2 levels.
(18) If the defendant meets the criteria set forth in subdivisions (1)-(5) of subsection (a) of § 5C1.2 (Limitation on
Applicability of Statutory Minimum Sentences in Certain Cases), decrease by 2 levels.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

